APPfAJbix " b n
IN THE COURT OF CRIMINAL APPEALS
OF THE STATE OF OKLAHOMA (; ! COURT OFFILED
CRIMINAL APPEALS
state of Oklahoma
JAMES JERMAINE WOODFORK, )
DEC 3 0 2020
)

Petitioner,

JOHN D. HADDEN

)
)

-vs-

)

No. PC-2020-585

)

THE STATE OF OKLAHOMA,

)
)

Respondent.

)

ORDER AFFIRMING DENIAL OF
APPLICATION FOR POST-CONVICTION RELIEF
The Petitioner has appealed to this Court from an order of the
District Court of Oklahoma County denying his application for post­
conviction relief in Case No. CF-1995-1587. On February 12, 1996,
Petitioner entered a negotiated plea of guilty to Count 1 - Possession
of a Controlled Dangerous (Cocaine) Substance With Intent to
Distribute; and Count 2 - Possession of a Controlled Dangerous
Substance (Marijuana) With Intent to Distribute. He was sentenced
on each count to a term of five years, with the sentences suspended
and allowed to run concurrently. Petitioner did not seek to withdraw
his plea within applicable time periods and thus failed to perfect direct
appeal proceedings from his Judgment and Sentence.

APfrertbix b

No. PC-2020-585, Woodfork v. State

In this matter, Petitioner contends that he is actually innocent of
Count 1 - Possession of a Controlled Dangerous (Cocaine) Substance
With Intent to Distribute because he was only in possession of one
baggie of cocaine that was for his own use and not for distribution. He
asks that his conviction for Count 1 be vacated.
Post-conviction review provides petitioners with very limited
grounds upon which to base a collateral attack on their judgments.
Logan v. State, 2013 OK CR 2, 1 3, 293 P.3d 969, 973. All issues
that were previously raised and ruled upon by this Court in
Petitioner’s direct appeal are procedurally barred from further review
under the doctrine of res judicata and all issues that could have been
previously raised but were not are waived for further review.

22

O.S.2011, § 1086; Logan, supra. The burden is on the Petitioner to
show that his claims are not procedurally barred and that there is
sufficient reason to allow the claims to be the basis of a post­
conviction application. 22 O.S.2011, § 1086; see also Davis v. State,
2005 OK CR 21, If 2, 123 P.3d 243, 244.
The issues Petitioner asserts in this matter could have and
should have been raised both prior to the entry of his negotiated plea
of guilty, and in direct appeal proceedings from his Judgment and
2

No. PC-2020-585, Woodfork v. State

Sentence. Petitioner failed to previously assert the issues and they are
22 O.S.2011, § 1086;

therefore waived and procedurally barred.

Logan, supra. We find that Petitioner has not met his burden to show
that his issues are not procedurally barred and that there is sufficient
reason to allow the issues to be the basis of a post-conviction
application. 22 O.S.2011, § 1086; see also Davis, 2005 OK CR 21 at
If 2, 123 P.3d at 244.
Therefore, the order of the District Court of Oklahoma County
denying Petitioner’s application for post-conviction relief in Case No.
CF-1995-1587 should be, and is hereby, AFFIRMED.

Pursuant to

Rule 3.15, Rules of the Oklahoma Court of Criminal Appeals, Title 22
Ch. 18, App. (2020), the MANDATE is ORDERED issued forthwith upon
the filing of this decision with the Clerk of this Court.
IT IS SO ORDERED.
WITNESS OUR HANDS AND THE SEAL OF THIS COURT this
fy/U_

3d

day of

, 20

DAVID B. LEWI

3

.

residing J

No. PC-2020-585, Woodfork v. State

danakuehnL

ce Presiding Judge
<r

GARY if. LUMPKIN, Judge

ROBERT L. HUDSON, Judge

SCOTT ROWLAND, Judge
ATTEST:

Clerk
PA

4

,4PP£Pdta "/?"
FILED IN DISTRICT COURT
OKLAHOMA COUNTY
IN THE DISTRICT COURT OF OKLAHOMA COUNTY
JUL 2 2 2020
STATE OF OKLAHOMA
JAMES JERMAINE WOODFORK,
Petitioner,
v.
THE STATE OF OKLAHOMA,
Respondent.

)
)
)
)
)
)
)
)
)

RICK WARREN
COURT CLERK
46.

Case No. CF-1995-1587

STATE’S RESPONSE TO APPLICATION FOR PnST-CONVTCTTrw p^t nre
COMES NOW the State of Oklahoma, by and through David W. Prater, the duly el
District Attorney of District Seven (7), Oklahoma County, State of Oklahoma,

ected

and Jennifer M.

Hinsperger, Assistant District Attorney, and respectfully requests this Honorable Court to d

eny

Petitioner’s Application for Post-Conviction Relief in all resp ects.
STATEMENT OF THE CASE
On February 12, 1996, Petitioner, represented by counsel, entered

a negotiated plea of

guilty to the crimes of Possession of a Controlled Dangerous Substance (Cocaine) with Intent to
Distribute (Count 1) and Possession of a Controlled Dangerous Substance (Marijuana) with Intent
to Distribute (Count 2), as charged in the above-numbered case.
The Honorable Nancy L: Coats
accepted the plea and sentenced Petitioner in accordance with the plea agreement to
terms of five (5) years imprisonment, all suspended under

concurrent

certain terms and conditions of

probation. See Exhibit 1, Plea -of Cuilty Summary of Facts. Petitioner was advised of and
acknowledged his right to appeal and the manner in which to

r‘

invoke that right. Id., Part B at 2.

However, he neither timely moved to withdraw his guilty plea nor otherwise

attempted to appeal

his convictions. See Exhibit 2, Docket. Petitioner’s suspended sentence expired on Febmary 11,
2001. Id.

Appeal * V) I I

On June 26, 2020, Petitioner, pro se, filed the instant Application for Post-Conviction
Relief,1 requesting that this Court

vacate his convictions and sentences. He also filed an

Application for Evidentiary Hearing pursuant to 22 O.S. § 1084 on July 9, 2020. Petitioner raises
the following propositions of error in support of his relief:
I.

H.

Trial counsel was ineffective for advising Petitioner to plead guilty to
Possession of CDS (Cocaine) with Intent to Distribute without investigating
and without first advising Petitioner that he had a viable defense to the
charge m violation of Oklahoma’s Constitution Article U Section 20 and
the United States Constitution’s 6th and 14th Amendments.
Petitioner is actually innocent of the charge of Possession of CDS (Cocaine)
as alleged in Count One of the Information.
ARGUMENT AND AUTHORITY

I. Petitioner’s decades-long inaction in seeking relief warrants application of laches.
Petitioner s inordinate delay in raising these iissues
for the first time warrants application
of the doctrine of laches. It has long been held that “[a] defendant in a criminal
any right not inalienable, given him by the Constitution

case may waive

or by the statute, either by express

agreement or conduct, or by such failure to insist upon it in seasonable time . .

■

Sarsycki v.

State, 1975 OK CR 165, f 6, 540 P.2d 588, 590 (quoting Syllabus of Rapp v. State, 1966 OK CR
51,413 P.2d 915). Consistent with this principle, the Court of Criminal Appeals has held that “the
doctrine of laches may prohibit the consideration of an application for post-conviction relief where
petitioner has forfeited that right through his own inaction.” Thomas v. State, 1995 OK CR 47, f
15, 903 P.2aA;i&, 330; Paxton v. State, 1995 OK CR 46, f 8, 903 P.2d 325, 327.

20roOKCR?i6”r228T3d53fll5Tr35A°titSTfH-rif“r ^

* 22 ° S' « 10S1- S«“ glV“

a petsoa authorized ,o' adJltr MtfsT is te tot sttedTder °“ T 7“""

2

In this case, Petitioner has waited twenty-four years since his Judgment
became final and nineteen years since he fully discharged his

and Sentence

sentence to seek relief from his

convictions. The legal and alleged factual bases for these belated claims have been available to
him at all times during the intervening years. Petitioner offers

no good or sufficient reason for his

Mure to seasonably assert these issues. Under the circumstances, consideration of his Application
for Post-Conviction Relief should be barred by laches.
I. Consideration Petitioner’s claims is procedurally barred by waiver.
Even if laches were not applied here, consideration of Petitioner’s claims is procedurally
barred by the doctrine of waiver. The Post-Conviction Procedure Act,
neither a substitute for a direct appeal nor a means for

22 O.S. §1080, et seq., is

a second appeal. Maines v. State, 1979 OK

CR71,f 4,597P.2d 774, 775-76; Foxv. State, 1994 OK CR 52, f 2, 880P.2d383,

384. The scope

of this remedial measure is strictly limited and does not allow for litigation of issues

available for

review at the time of direct appeal. Johnson v. State, 1991 OK CR 124, ff 3-4, 823 P.2d 370

,372;

Cflrtr° V‘ Sme’ 1994 °K CR 53’ ^ 2’ 880 P-2d 387, 388. Issues that were previously raised and
ruled upon on direct appeal are procedurally haired from further review under the doctrine

of res

judicata, and issues that were not raised previously on direct appeal, blit which could have been,
are waived for further review. Logan v. State, 2013 OK CR 2, f 3,293 P.3d 969

,973.

An exception to this rule exists where a court finds sufficient reason for not asserting or
inadequately presenting an issue in prior proceedings. 22 O.S. § 1086; Berget v. State, 1995 OK
CR 66, f 6, 907 P.2d 1078, 1081. This requires a showing that some impediment external to the
defense prevented the petitioner and counsel from properly raising the claim. Johnson, 1991 OK
CR 124, f 7, 823 P.2d at 373. Petitioner has the burden of establishing that his claim could not

3

innocence, not mere legal insufficiency.”). As Petitioner provides no reason sufficient to ov ercome
procedural default, consideration of these propositions is waived.
Where a claim is procedurally barred, there is no need to address the merits of the issues
presented. Boyd v. State, 1996 OK CR 12, f 3, 915 P.2d 922, 924. As aptly stated by the Court of
Criminal Appeals:
In the case sub judice, Petitioner was afforded an opportunity to pursue a direct
appeal; he specifically declined to do so. As a result, he is bound by that earlier
decision; as a consequence of that decision, he has forfeited his right to have this
Court consider [issues], which would have been readily available for that direct
appeal.
Wallace v. State, 1997 OK CR 18, 1 5, 935 P.2d 366, 370 (citation omitted). Therefore, the
Petitioner’s allegations of error need not be addressed, and his Application for Post-Conviction
Relief should be summarily denied as a matter of law. See 22 O.S. § 1083(C)
CONCLUSION
Petitioner s inexcusable twenty-four-year delay in seeking relief on these issues warrants
application of the doctrine of laches to bar consideration of his post-conviction application.
Furthermore, even if laches were not applied here, Petitioner’s claims are waived for postconviction review as they could have been but, for no sufficient reason, were not raised in a timely
direct appeal. As such, there are no issues of material fact for which an evidentiary hearing is
necessary to resolve.
WHEREFORE, the State of Oklahoma respectfully prays that this Honorable Court will
deny Petitioner’s Application for Post-Conviction Relief and request for evidentiary hearing
respects.
Respectfully Submitted,
DAVID W. PRATER
DISTRICT ATTORNEY
5

- r

in all

BYr

A•Ah

/

/!
/

y‘

X

1/ArJ

JENNrfER M. HINSPERGER, OBA #31
ASSISTANT DISTRICT ATTORNEY
320 Robert S. Kerr, Suite 505
Oklahoma City, OK 73102
Phone: (405)713-1600
Fax: (405) 235-1567

CERTIFICATE OF MATT .me
This is to certify that a true and correct copy of the State’s Response to Application for
Post-Conviction Relief was mailed on the date of filing to:
James Woodfork. DOC # 243884
James Crabtree Correctional Center
21 N. Murray St.
Helena, OK 73741

\Trm*
fer M. Hinsperger, ADA

CERTIFIED
COPY
AS FILED OF RECORD
IN DISTRICT COURT

JUL 22 2010
RICK WARfiiiii mm»
6

/) PPE/d Dlx * & n
IN THE DISTRICT COURT OF OKLAHOMA COUNTY
STATE OF OKLAHOMA
JAMES JERMAINE WOODFORK,
Petitioner,
V.

THE STATE OF OKLAHOMA,
Respondent.

)
)
)
)
)
)
)
)
)

FEED IN DISTRICT COURT
OKLAHOMA COUNTT
Case No. CF-1995-1587

AUG 06 2020

ORDER DENYING APPLICATION FOR POST-CONVICTION RELIEF
j, ,. ,
mafer iC0mes 0n for consideration of Petitioner’s Application for Post-Conviction
Relief filed in the above-referenced case .and the State’s Response thereto, and the Court being
fully advised finds as follows:
MATERIALS REVIEWED FOR DECISION
. r ^ Court has reviewed the following materials in reaching its decision: Petitioner’s
Application for Post-Conviction Relief, and attachments thereto, filed on June 26, 2020Petitioner’s Application for Evidentiary Hearing, filed on July 9, 2020; the State’s Response to
Application for Post-Conviction Relief, and attachments thereto, filed on July 21, 2020- and the
-appearance docket for Oklahoma County Case No. CF-1995-1587.
PROCEDURAL HISTORY
-On February 12, 1996, Petitioner, represented by counsel, entered a negotiated'plea of
guilty to the crimes of Possession of a Controlled Dangerous Substance (Cocaine) with Intent to
DistnbuteTCount 1) and Possession of a Controlled Dangerous Substance (Marijuana) with Intent
to Distribute (Count 2), as charged in Oklahoma County Case No. CF-1995-1587. The Honorable
Nancy L. Coats accepted the plea and sentenced Petitioner in accordance with the plea agreement
to concurrent terms of five (5) years imprisonment, all suspended under certain terms and
conditions of probation.
At the time of sentencing, Petitioner was advised of and acknowledged Ms right to appeal
and the maimer in wMch to invoke that right However, he did not pursue an appeal. Petitioner's
suspended sentence expired on February 11, 2001.
d .r *-i°n June.26, 2020’ Petitioner, pm se, filed the instant Application for Post-Conviction
Relief, requesting that this Court vacate his convictions and sentences: He also filed an

n 36228 p%d ^fcS0noiSr“°l.itSelJV,enfieCl’ 23 required hy 22 °-S- § 1081- See Dixon v. State, 2010 OK CR 3, f 6
n.3,228 P 3d 531 532 n.3 ( A verified application is one that is either notarized or given before a person authorized
to administer oaths or is one that is signed under penalty of peijiuy as specified under 12 O.S.Sup^ 2002 § 426 ”)

APPEUbHY. l' B

H

1084 “Wy 9'202a
Proposition I

Trial counsel was
. Effective for advising Petitioner to plead
guilty to Possession of CDS (Cocaine) with Intent to Distribute
without investigating and without first advising Petitioner that
e had a viable defense to the charge in violation of Oklahoma’s
Constitution Article E Section 20, and the United States
Constitution s 6th and 14th Amendments.

Proposition II Petitioner is actually innocent of the charge of Possession of
CDS (Cocaine) as alleged in Count One of the Information.
FINDINGS OF FACT & CONCLUSIONS OF LAW
s post-conviction
330;

Paxton v. State,
consideration of Petitioner's Application for Po^CoSon
Accordingly, it is denied.

proposition ™pro“^™bevVSe d

" “ ^ C“"instances,
Relief is barred by laches.

f“^^

cSr;r 97 P 2dfm m“V mTfor a second ^

oS

ft“ocSebofres'SSta““banrifem&XrrS'nnder

inadequatelSpresenting £££ ““cSgs “S“ “T* “

to, his claim is not procednrally batrek. Robinson , Sta,e,
108.

fact in support of his cldms^f

lOsTnFaas^^h^6? ^ B)’ Wherein he makes

“d^d°C“ande“
2

of

As noted above, both of Petitioner’s claims could have been raised in a timely appeal from
s guilty plea, which he chose to forgo. Petitioner offers no sufficient reason for this Court to now
review-Propositions 1 ^n “waived'FOT ,his «-«
This P™1 has disposed of Petitioner’s application as a matter of law based upon the
pleadings and the record. There is no issue of material fact for which an evidentiary hearing is
necessary to resolve. 22 O.S. §§ 1083,1084; Fowler v. State, 1995 OK CR 29,18 896 P 2d 566
566; Logan, 2013 OK CR 2, H 20-22,293 P.3d at 978.
’
IT K THEREFORE ORDERED, ADJUDGED AND DECREED that Petitioned
Application for Post-Conviction Relief is DENIED.
\

1

V

Dated thisW

day of

HEATHER E. COYLtf \
DISTRICT JUDGEf
\
IN DiCT-VOA

AUG - 7 2020
CLERK
Oklahoma County
RICKWAKHcN COURT

NOTICE OF RIGHT TO APPF.AT.

,,,

A final judgment under this act [Post-Conviction Procedure Act, 22 O S §
108°, et seq.} may be appealed to the Court of Criminal Appeals on petition in
error fded either by the applicant or the State within thirty (30) days from
entry of the judgment. Upon motion of either party on filing of notice of intent
to appeal, within ten (10) days of entering the judgment, the district court may
stay the execution of the judgment pending disposition on appeal; provided
the Court of Criminal Appeals may direct the vacation of the order staying the
execution prior to final disposition of the appeal. 22 O.S. § 1087. The party
desiring to appeal from the final order must file a Notice of Post-Conviction
Appeal with the Clerk of the District Court within twenty (20) days from the
date the order is filed in the District Court. Rule 5.2(C)(1), Rules of the
Oklahoma Court of Criminal Appeals, Title 22, Ch. 18 App. (2020).

3

CERTIFICATE OF SERVICE
I hereby certify that on the ~^dav of
2020,1 mailed a certified copy of the
above and foregoing order, witfi postage
p
thereon fully prepaid, to:
James Jermaine Woodfork, DOC #243884
James Crabtree Correctional Center
216 N. Murray St.
Helena, OK 73741
PETITIONER, PRO SE
and that a true and correct copy of the above and foregoing order was hand-delivered to:
Jennifer M. Hinsperger, Assistant District Attorney
Oklahoma County District Attorney’s.Office
COUNSEL FOR RESPONDENT

-xlaJ/)U
Deputy Court Clerk

4

APPf/OkIA "C
IN THE COURT OF CRIMINAL APPEALS
STATE OF OKLAHOMA

JAMES JERMAINE WOODFORK,
Appellant,

PC

VS.

Case No:
(Supplied by Clerk)

THE STATE OF OKLAHOMA,
Appellee.

APPELLANT’S BRIEF-IN-SUPPORT OF PETITION-IN-ERROR

COMES NOW James Jermaine Woodfork, the Appellant appearing pro se,
and Respectfully submits his Brief-In-Support of the Petition-In-Error, and shows
the Honorable Court the Following:
Appellant will be referred to herein by name or as the “Appellant”.
References appearing in parenthesis will refer to Exhibits presented to the district
Court and will refer to the Order of the Oklahoma County District Court Denying
Post-Conviction Relief.
Upon Consideration by this Court, Appellant respectfully requests that the
decision of the Oklahoma County Court denying Post-Conviction Relief be
Reversed, and that Appellant’s conviction for Possession of Cocaine with Intent to
Distribute (Count One) be Vacated.
1

/ITPFiODDc '' C

K

/1

PROPOSITION ONF
THE DISTRICT COURT ABUSED ITS DISCRETION BY DENYING
APPELLANT POST-CONVICTION RELIEF ON
PHE BASIS OF LACHES
and procedural bar.
Appellant asserts that the District Court of Oklahoma County abused its
discretion by denting him post-conviction

relief on the basis of laches and

procedural bar.1 Specially, relying on Thomas v. State,

1995

-OK CR 47 % 15,

903 P.2d 328, 330 and Paxton v. State, 1995 OK CR 46 J8, 903 P.2d 325,327 the
lower court concluded that because “of his

own inaction,— Petitioner’s

Application for Post-Conviction Relief is barred by laches.”

(See Order Denying

Post-Conviction Relief, page 2). It is submitted that the above quoted decision is
was arbitrary and was made without proper consideration of the facts and relevant
law. See Neloms v. State, 2012 OK CR 7, U 35, 274 P.3d 161, 170 (held abuse of
discretion standard is satisfied if Petitioner demonstrates the lower

court’s

conclusion was arbitrary; was made without proper consideration of the relevant
facts and law, and/or was made against the logic and effect of the facts).

required ^2 O fsT^8
,h".Pfio"er’s Application was not verified as
pleadings slould be cLZk l^a' ly IS^tiTr
TotT “
O-S. § 2005 provides “the clerk shall n* refuse to accent for
form as required by these rules or any local rules or practices.”
2

( ? ' Furtheraiore> Tltle ^
^ ^ * 18 n0t m proper

First and foremost, none of the cases relied on by the lower court to deny
Appellant post-conviction relief involved a claim of actual innocence.
Furthermore, in Ex Parte Snow, 183 P.2d 588, 594 (Okl.Cr.1947) this Court held
that the doctrine of laches cannot be applied to a case
where the petitioner presents
“clear and convincing evidence” of a constitutional violation, “

[t]o say the least,

we are of the opinion that after fifteen (15) years delay, such a case to form a basis
for relief by habeas corpus must be founded

upon proof that is clear, and

convincing.” Id. In the case herein, the evidence presented to the lower court (see
Appellant’s Post-Conviction Exhibit s A & B) certainly made out a prima facie
case of “clear and convincing evidence” where, according to the State
’s own
version of events, Appellant was only in possession of one small baggie of cocaine
and there was no evidence to substantiate the charge that Appellant sought to
-distribute the drug.
In fact, in the Response filed by the District Attorney (See State’s Response
to Application for Post-Conviction Relief), the State wholly failed to acknowledge
or address the evidence presented in police reports and other documents (

see

Appellant’s Post-Conviction Exhibit’s A & B) which clearly indicated that this
Appellant is both actually and factually innocent of the charge of Possession of
Cocaine with Intent to Distribute. Likewise, the lower court’s Order denying postconviction relief also fails to acknowledge or address the important evidence of

3

Appellant’s innocence presented in exhibits. Hence, it has therefore been clearly
demonstrated that the lower court’s decision was made arbitrarily and without

any

consideration of the important facts which substantiated Appellant’s claim.
Accordmgly, the lower court clearly abuse its discretion when it denied Appellant
post-conviction relief without any acknowledgment of the important evidence
underlying Appellant’s claim. See Neloms v. State, supra.
It if further submitted that the lower court’s decision failed to consider the
law relevant to adjudicating claims involving actual innocence. Contrary to the two
state authorities used by the lower court to deny post-conviction relief, claims of
actual innocence are not subject to the rules of laches, res judicata or procedural
bar. In Schlup v. Delo, 513 U.S. 288 (1995) the United States Supreme Court held
“when an otherwise time-barred habeas petition presents evidence of innocence so
strong that court cannot have confidence in the outcome— the court may consider
the petition on the merits.” In McQuiggin v. Perkins, 569 U.S. 383, 401 (2013),
the Supreme Court echoed its previous holding in Schlup and held that the actual
innocence gateway should open to reach the merits of a procedurally barred claim
when strong evidence of innocence is presented. See also, McQuiggin v. Perkins,
569 U.S. 383, 401 (2013) (held that the actual innocence gateway should open to
reach the merits of a procedurally barred claim when strong evidence of innocence

IS presented). 2 Furthermore, In United States v. McGirk WL3 848063 the United
States Supreme Court recently vacated a 1999 Oklahoma conviction upon a claim
of lack of jurisdiction, even though over twenty years passed, the state never
alleged that the doctrine of laches barred McGirt’s jurisdictional claim. Surely,
consistent with the above referenced authority, Appellant’s claim of actual and
factual innocence could not be subjected to a time-bar. To hold otherwise would
violate Appellant’s rights to due process and equal protection of the law under
Oklahoma’s Constitution Article II, Section 7, and the U.S. Constitution’s
Fourteenth Amendment. Accordingly, because the lower court’s decision was
contrary to the law relevant to reviewing claims of actual innocence, the court
abused its discretion by denying Appellant post-conviction relief.
CONCLUSION
The lower court abused its discretion and acted arbitrarily when it failed to
acknowledge or address the important evidence underlying Appellant’s claim of
actual innocence. Furthermore, the lower court’s refusal to apply the law relevant
to reviewing claims of actual innocence also resulted in a decision that was
contrary to clearly established state and federal law. Therefore, the decision of
Oklahoma County District Court Denying Post-Conviction Relief should be
Likewise, this Court has ignored the time bar in cases where constitutional violations were
874P2d60yi4rOHeVen_where actual innocence was NOT alleged. See Allen v. State,
60’ 64 (0kl-Cr.l994); Jones v. State, 704 P.2d 1140 (Okl.Cr. 1985V Castleberry
v. State, 590
P.2d 697, 701 (Okl.Cr. 1979) Stewart v. State, 495 P.2d 834, 836 (Okl.Cr. 1976).
5.

